No. 20-994

In the Supreme Court of the United States
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL.,
Petitioners,
v.
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA, AND SALT LAKE
COUNTY, UTAH,
Respondents.

CERTIFICATE OF SERVICE

I, Nicole A. Saharsky, counsel for Amici Curiae and a member of the Bar of this
Court, certify that on this 16th day of February, 2021, I caused the Brief for Product
Liability Advisory Council, Inc. and Motor & Equipment Manufacturers Association
As Amici Curiae In Support Of Petitioners to be served by electronic means (by
agreement of all the parties) on the following:
Robert J. Giuffra Jr.
Sullivan & Cromwell
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com

Peter K. Stris
Stris and Maher LLP
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
peter.stris@strismaher.com

Matthew D. Slater
Cleary Gottlieb Steen & Hamilton LLP
2112 Pennsylvania Avenue, NW
Suite 1000
Washington, DC 20037
(202) 974-1500
mslater@cgsh.com
I further certify that all parties required to be served have been served.

Nicole A. Saharsky

